CERTIFICATE OF WORD COUNT
NO. TBD
Roque De La Fuente, Rocky,
Petitioner(s),
v.
Alex Padilla, California Secretary of State; State of California,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the ROQUE DE LA FUENTE,
ROCKY PETITION FOR WRIT OF CERTIORARI contains 8672 words, including the parts of the brief that
are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
October 17, 2019

SCP Tracking: Rossi-316 Hill Street-Cover White

